IN THE
SUPREME COURT OF THE UNITED STATES
ROBERT CRAFT,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES
STATE OF FLORIDA

APPENDIX

DOCUMENT

A

Opinion of the Florida Supreme Court
Rendered on November 19, 2020

B

Order of the Florida Supreme Court
Denying Motion for Rehearing
Rendered on March 4, 2021

Craft v. State, 312 So.3d 45 (2020)

Appendix A 1

45 Fla. L. Weekly S293

312 So.3d 45
Supreme Court of Florida.
Robert CRAFT, Appellant,
v.
STATE of Florida, Appellee.
No. SC19-953
|
November 19, 2020
Synopsis
Background: Defendant was convicted in the Circuit
Court, 3rd Judicial Circuit, Columbia County, Paul S.
Bryan, J., of murder and sentenced to death. Defendant
appealed.

Holdings: The Supreme Court held that:
defendant did not waive the right to present mitigation
evidence during penalty phase;
trial court did not abuse its discretion by
accepting death penalty defendant's limited mitigation
presentation;
trial court did not abuse its discretion by assigning
little weight to death penalty defendant's traumatic
childhood as a mitigating factor;

Affirmed.
Labarga, J., filed opinion concurring in the result.
Procedural
Posture(s):
Appellate
Review;
Sentencing or Penalty Phase Motion or Objection.
*47 An Appeal from the Circuit Court in and for
Columbia County, Paul S. Bryan, Judge - Case No
122018CF000667CFAXMX
Attorneys and Law Firms
Andy Thomas, Public Defender, and Richard M.
Bracey, III, Assistant Public Defender, Second Judicial
Circuit, Tallahassee, Florida, for Appellant
Ashley Moody, Attorney General, and William David
Chappell, Assistant Attorney General, Tallahassee,
Florida, for Appellee
Opinion
PER CURIAM.
Robert Craft appeals his conviction for first-degree
murder and his sentence of death. We have jurisdiction.
See art. V, § 3(b)(1), Fla. Const. For the reasons below,
we affirm Craft's conviction and sentence of death.

I. BACKGROUND
trial court did not abuse its discretion in imposing the
death penalty without requiring the State to present all
mitigating evidence in its possession;
trial court's cumulative errors of failing to consider
the believable and uncontroverted mitigation of
defendant's prior employment history and that
defendant had saved a fellow inmate's life did not
entitle defendant to relief from his sentence of death;
defendant's guilty plea to first-degree murder was
knowing, intelligent, and voluntary; and
the factual basis for defendant's plea provided
competent, substantial evidence to support his
conviction for first-degree murder.

On May 16, 2018, Craft strangled and beat to death
Darren W. Shira in the cell they shared at Columbia
Correctional Institution. Following Shira's murder,
Craft confessed multiple times, including in two
recorded statements to Special Agent Terrance Tyler
of the Florida Department of Law Enforcement and in
letters to the state attorney's office and the trial court.
The trial court accurately summarized Craft's
statements and the circumstances of the killing in the
sentencing order, in pertinent part, as follows:
[T]he Defendant [admitted] that he “tortured” the
victim “on purpose.” He explained the various
methods and manner in which he attacked the
victim over approximately 30 minutes [and] ... [h]e
admitted that he only stopped this relentless attack

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Craft v. State, 312 So.3d 45 (2020)

Appendix A 2

45 Fla. L. Weekly S293

when the victim's feet turned purple, there was blood
coming out of the victim's nose, and the victim's eyes
were bulging. ...
....
... The Defendant admitted that the victim did not
pose a threat to him nor did the victim initiate the
altercation. Rather, the Defendant admitted that the
victim was lying on his bed when the Defendant
initiated the attack by slapping the victim's feet.
As soon as the *48 victim sat up, the Defendant
smacked or punched the victim's face and then
launched into a physical attack that lasted, according
to the Defendant, about a half hour.
The Defendant explained that he first attempted to
crush the victim's neck but that this proved more
difficult than in the movies, so he had to strangle
the victim. The victim offered minimal resistance.
Nonetheless, the Defendant “beat on” the victim
with his fists, continued to choke the victim, and
pulled the victim off of his bed and onto the floor
where the Defendant used his feet against the wall
as leverage to push down on the victim's throat. The
Defendant also tore off the white stripe that runs
down the side of the prison pants and tied this around
the victim's neck. ...
....
[Further,] ... the Defendant admitted that he had
planned the murder. Specifically, he explained
that, after learning that the victim was in prison
for allegedly molesting children, the Defendant
determined that he was going to kill the victim and
immediately began planning the murder, which he
committed a few days later. According to his own
admission, the Defendant waited because he first
wanted to inform his sister, via letter, that he was
going to “catch a body.” He also informed other
inmates, prior to the killing, that he was going
to kill the victim and was even offered a knife
for the killing, which he refused. Another inmate,
according to the Defendant, attempted to convince
the Defendant not to do it. The Defendant also
realized that the killing would likely be bloody, so he
removed the victim's pants and donned them during
the attack to prevent his pants from getting covered
in blood. He further admitted that he had intended
to sodomize the victim but that he could not do that.

Moreover, while explaining to Special Agent Tyler
that he had planned the murder for a few days, he
stated that he wanted the murder to be “CCP” and
even asked if it would be considered a hate crime
because the victim was Jewish, gay, a child molester,
and ex-Navy. The Defendant also told Special Agent
Tyler that he had told the victim, while they were
eating dinner [just before the killing], that this
was the victim's last meal and that it was a pretty
“f[***]ed up” last meal.[n.6]
[N.6] Even the discovery of the body was
orchestrated by the Defendant: he told the inmate
trustee that he had some trash, and when directed
to slide it under the door of his cell, he stated that
a dead body would not fit.
(Footnote omitted.)
Craft was indicted for the victim's first-degree murder
under the theory of premeditated murder on October
1, 2018. Shortly thereafter, he began expressing his
desires to quickly end his case, plead guilty, waive a
penalty-phase jury, waive mitigation, and receive the
death penalty—both in letters to the state attorney's
office and in a pro se “Motion for Faretta Hearing and
Recusal of Counsel” filed in January 2019.
The trial court held a hearing on January 23, 2019,
during which Craft maintained that he wanted to
waive counsel and represent himself, that he wanted to
proceed with a speedy bench trial, and that he did “not
want mitigation.” At the hearing, the trial court asked
Craft, “Do you know what the matters in mitigation
are?” Craft responded, “Mitigation is to investigate,
research and find if there's anything basically that
would prevent me from getting the death penalty.”
The trial court further explained that mitigation can
be “something that happened in [Craft's] childhood,
*49 whether it was something that happened during
the case itself, whether it has to do with psychological,
psychiatric problems.... It can have to do with ...
injuries, all kinds of things,” and Craft indicated that he
understood. The trial court deferred ruling on Craft's
pro se motion pending evaluation of Craft by two
mental health experts to determine his competency to
proceed.
Both experts examined Craft on March 25, 2019, and
thereafter submitted reports finding him competent. In

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Craft v. State, 312 So.3d 45 (2020)

Appendix A 3

45 Fla. L. Weekly S293

finding Craft competent, Dr. Chris P. Robison noted
that Craft “articulated a coherent rationale to support
his determination to represent himself, plead guilty
to the alleged offense and waive the opportunity to
present mitigation testimony in his case, which would
likely result in imposition of the death penalty in
his case.” Similarly, Dr. Salvatore M. Blandino noted
that Craft “is competent to proceed and to go pro-se
if he decides to proceed in this manner.” (Emphasis
omitted.)
On March 27, 2019, based on the experts’ evaluations,
the trial court orally found Craft competent, conducted
a Faretta 1 inquiry, ruled that Craft could waive
counsel and represent himself, and appointed standby
counsel. Craft immediately announced his desire to
plead guilty. After taking a recess during which Craft
and the State discussed the written plea form, the trial
court conducted an extensive plea colloquy with Craft,
using the colloquy outlined in this Court's decision in
Lynch v. State, 841 So. 2d 362, 376-77 (Fla. 2003), as
a guide.
During the plea colloquy, the trial court explained the
constitutional rights that Craft would be waiving with
a guilty plea, including the right to a trial by jury,
and further explained that if Craft pleaded guilty the
case would move directly to the penalty phase. Craft
stated that he understood that by pleading guilty he was
waiving his right to have a jury determine whether he
was guilty or not; that the only two possible sentences
for first-degree murder are life imprisonment or death;
that his case would proceed directly to the penalty
phase as a result of his plea; and that he was not
threatened or coerced into pleading guilty or promised
a specific sentence in return for his plea. Craft further
stated that he was pleading guilty to the factual basis
submitted by the State to support the plea, which was
as follows:
The indictment in this case and the evidence
that supports it were that Mr. Craft on May the
16th, on or about that date, 2018, in Columbia
County, specifically at the Columbia Correctional
Institution, unlawfully and from a premeditated
design and intent to effect the death of [the victim]
did kill him by inflicting upon him mortal wounds
and injuries, specifically Mr. Craft beat [the victim]
and strangled him.

As [Craft] just indicated during the plea colloquy ...
in terms of how long he had been thinking about it ...,
since May 15th, that was while he was in a cell with
[the victim] prior to the killing, further indicating a
premeditated design and intent to effect the death of
his cellmate.
... [O]n May the 16th, Columbia Correctional
Institute personnel arrived at Mr. Craft's cell. Mr.
Craft indicated to them that he had killed his
cellmate. He then reiterated the same, indicating
the manner in which he had done it, by beating
and strangling him, in further interviews to the
Florida Department of Law Enforcement and further
detailed in letters and correspondence that he has
sent to the office of the state attorney *50 of his
plan to effect the death of [the victim] and his
actions in carrying out said acts. All again occurring
within Columbia County, contrary to Florida Statute
782.04[(1)].
Thereafter, the trial court accepted Craft's plea,
finding that it was “freely, voluntarily, knowingly and
intelligently given.”
During the March 27 plea colloquy, Craft had also
stated that he wanted to waive his right to a penaltyphase jury. In response, the trial court provided a
detailed explanation of how the penalty phase is
conducted, including the presentation of aggravators
and mitigators, and explained the procedure if a jury is
not waived and the procedure if a jury is waived. The
trial court paused its explanation several times to ask
Craft if he understood, and each time Craft stated that
he did, and he also indicated that he had “already gone
over that with [his prior] attorney.” After accepting
Craft's plea, the trial court announced its intent to order
a presentence investigation report (PSI).
After the PSI was completed, the penalty-phase
proceeding was held on May 13, 2019. There, Craft
maintained his desire to continue to waive counsel and
represent himself, and he also maintained his desire to
waive his right to a penalty-phase jury, and indicated
that he did not intend to present mitigation.
During the penalty-phase proceeding, the State
presented the testimony of Agent Tyler, during which
Craft's two unredacted recorded statements to Agent

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Craft v. State, 312 So.3d 45 (2020)

Appendix A 4

45 Fla. L. Weekly S293

Tyler were played and photographs of the crime scene
were admitted, all without objection by Craft. The
State also presented the testimony of the medical
examiner who autopsied the victim. During the
medical examiner's testimony, photographs and x-rays
of the victim's body were admitted, without objection
by Craft. After describing the extensive injuries to
the victim's head and neck, the medical examiner
testified that the cause of death was strangulation and
blunt force head trauma. He further opined that “a
considerable amount of force would have to be applied
for a length of time to produce these kinds of injuries.”
More specifically, he explained that when a person
is being strangled, “it takes four or five minutes of
constant pressure blocking the blood flow to the brain
to start to cause lethal brain injury.”
In addition to presenting these two witnesses, without
objection from Craft, the State introduced a certified
copy of Craft's 2015 judgment and sentence in support
of the prior violent felony aggravator. Specifically, the
State relied upon three of Craft's prior convictions,
for which Craft was serving an aggregate fifteenyear sentence at the time of the victim's murder,
namely aggravated battery with a deadly weapon,
aggravated assault with a deadly weapon, and armed
false imprisonment. The State also introduced, without
objection from Craft, a certified copy of Craft's records
from the Department of Corrections, three letters that
Craft had sent to the state attorney's office, and one
letter that Craft had sent to the judge. The letters from
Craft included admissions by Craft that he had killed
the victim and threats to continue killing while in
prison.
After the State rested its penalty-phase presentation,
the trial court again inquired of Craft as to whether
he wished to present mitigation. Craft answered,
“Myself, no, I don't.” Nevertheless, Craft presented
the testimony of four family members “[f]or their
conscience purpose,” all of whom testified about
Craft's background, including his traumatic childhood,
and their love for him. Ultimately, Craft also made
a statement “to clear everything up,” in which, in
addition to explaining why he pleaded guilty, admitting
that he killed the victim, and explaining why he wanted
a *51 death sentence, Craft expressed love for his
family and said that he was sorry that his actions had
made them suffer.

Following Craft's presentation, the State asked to
be heard on mitigation. “[N]ot anticipating [Craft's]
family was going to show up,” the prosecutor stated
that he “did [his] best to come up with a range of
non-statutory mitigators ... based on the PSI, both
mental health evaluations and other facts gleaned from
within the entirety of the court file,” and then presented
those circumstances to the trial court. Finally, the
State presented argument as to why the trial court
should find the prior-violent-felony, under-sentenceof-imprisonment, HAC, and CCP aggravators.
Thereafter, on June 7, 2019, the trial court held a joint
Spencer 2 and sentencing hearing. During the Spencer
portion of the hearing, Craft maintained his desire to
represent himself, confirmed that he did not wish to
be heard on any of the information contained in the
PSI, and stated that he did not wish to offer anything
else that had not been offered previously. Craft also
confirmed that he had previously written two letters to
the trial judge. The letters, which included admissions
by Craft that he had killed the victim and threats to
continue killing while in prison, were given to the clerk
for filing. After concluding the Spencer hearing, the
trial court recessed to finalize the sentencing order,
and upon reconvening the hearing, sentenced Craft to
death.
The sentencing order reflects that the trial court found
the existence of four statutory aggravating factors
beyond a reasonable doubt and assigned them the noted
weight: (1) the capital felony was committed by a
person previously convicted of a felony and under
sentence of imprisonment or placed on community
control or on felony probation (great weight); (2)
the defendant was previously convicted of another
capital felony or of a felony involving the use or
threat of violence to the person (great weight); (3)
the capital felony was especially heinous, atrocious,
or cruel (HAC) (very great weight); and (4) the
capital felony was a homicide and was committed in
a cold, calculated, and premeditated manner without
any pretense of moral or legal justification (CCP) (very
great weight).
The trial court considered but did not find any
statutory mitigating circumstances. However, the
trial court found the following four nonstatutory

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Craft v. State, 312 So.3d 45 (2020)

Appendix A 5

45 Fla. L. Weekly S293

mitigating circumstances to which it assigned the
noted weight: (1) childhood trauma (little weight); (2)
close family ties (slight weight); (3) general mental
health mitigation (some weight); and (4) good behavior
during trial (little weight).
In sentencing Craft to death, the trial court found as
follows:
As explained above, this Court has found beyond
a reasonable doubt the existence of four statutory
aggravating factors, including both that the
murder was committed in a cold, calculated, and
premeditated manner and that it was especially
heinous, atrocious, or cruel: “two of the most serious
aggravators set out in the statutory sentencing
scheme.” Larkins v. State, 739 So. 2d 90, 95 (Fla.
1999). This Court assigned very great weight to
those two “most serious aggravators,” and great
weight to the other two aggravating factors, which
related to the Defendant's prior felonies.
This Court carefully evaluated the statutory
mitigating factors and found that none are applicable
in this case. This Court found that four nonstatutory mitigating factors have been sufficiently
*52 proven. These factors were afforded little,
slight, some, and little weight, respectively.
This Court, having compared the mitigating
factors against the aggravating factors, finds that
the aggravating factors clearly, convincingly, and
beyond a reasonable doubt outweigh the mitigating
factors. In fact, the mitigating evidence “is minimal
and does not come close to outweighing the
aggravating factors.” McWatters v. State, 36 So.
3d 613, 642 (Fla. 2010). In other words, although
the number of mitigating factors is equal to the
number of aggravating factors, the relevant inquiry
and determination is not the sheer number but,
rather, the weight afforded each factor. Here, the
nature and quality of the mitigating evidence pales
in comparison to the enormity of the aggravating
factors proven in this case.
Craft now appeals, raising seven issues.

II. ANALYSIS

Craft raises five mitigation-related challenges; argues
that the trial court fundamentally erred by failing
to determine beyond a reasonable doubt that the
aggravating factors were sufficient to justify the
death penalty; and contends that the trial court's
failure to enter a written order finding him competent
to proceed after orally announcing its competency
finding requires remand for entry of a written nunc pro
tunc order. Additionally, because Craft pleaded guilty
to first-degree murder, our mandatory sufficiency
review, see Fla. R. App. P. 9.142(a)(5), requires us
to determine whether his guilty plea was knowingly,
intelligently, and voluntarily entered. 3

A. Mitigation
Craft first challenges the trial court's handling of
mitigation in five respects. Specifically, he argues
that (1) the trial court erred in accepting his waiver
of the right to present mitigation; (2) the trial court
abused its discretion in assigning little weight to the
mitigating circumstance of childhood trauma, the same
weight assigned to the mitigating circumstance of
good behavior during trial; (3) the trial court abused
its discretion in imposing the death penalty without
requiring the State to present all mitigating evidence in
its possession and without calling mitigating witnesses
or appointing special counsel; (4) the trial court abused
its discretion by failing to consider all believable
and uncontroverted mitigation in the record; and
(5) cumulatively, the trial court's errors respecting
mitigation entitle Craft to relief from his sentence
of death. As explained below, none of these claims
warrants relief.

1. Mitigation Presentation
In his first mitigation-related challenge, Craft argues
that the trial court erred in accepting his waiver of the
right to present mitigation. “The standard by which
[this Court] review[s] a trial court's acceptance of a
death penalty defendant's waiver of the right to present
mitigating evidence is whether the court abused its
discretion.” Robertson v. State, 187 So. 3d 1207, 1212
(Fla. 2016). However, Craft's case does not involve
a waiver of the right to present mitigation because
Craft presented the testimony of four family members

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Craft v. State, 312 So.3d 45 (2020)

Appendix A 6

45 Fla. L. Weekly S293

and also made his own statement *53 during the
penalty-phase proceeding. Cf. Boyd v. State, 910 So.
2d 167, 188 (Fla. 2005) (“Boyd did not ultimately
waive his right to present mitigation. After discussing
matters with his friends and family, Boyd elected
to testify during the penalty phase and allowed his
pastor to testify.”). Although the mitigation presented
through Craft was limited, and although Craft stated
that he was calling his family members to testify
“[f]or their conscience purposes” and further said
that the purpose of his own penalty-phase statement
was “to clear everything up,” the trial court would
have abused its discretion had it not considered the
believable and uncontroverted mitigation presented
through these witnesses. See Robinson v. State, 684
So. 2d 175, 177 (Fla. 1996) (“It is well settled that
mitigating evidence must be considered and weighed
when contained anywhere in the record, to the extent it
is believable and uncontroverted.”). We refuse to find a
waiver of the right to present mitigation in a case where
the defendant actually presented mitigation. Cf. Boyd,
910 So. 2d at 188.
Nor did the trial court err in accepting Craft's limited
mitigation presentation. We have consistently held
that, “in the final analysis, all competent defendants
have a right to control their own destinies,” including
with respect to the presentation of mitigation. Hamblen
v. State, 527 So. 2d 800, 804 (Fla. 1988). Moreover, the
record reflects several instances in which the trial court
discussed mitigation and its importance with Craft,
and based on Craft's representations that he would
not present mitigation, before conducting the penalty
phase, the trial court ordered a PSI. See Fla. R. Crim. P.
3.710(b) (“Should a defendant in a capital case choose
not to challenge the death penalty and refuse to present
mitigation evidence, the court shall refer the case to
the Department of Corrections for the preparation of a
presentence report. The report shall be comprehensive
and should include information such as previous
mental health problems (including hospitalizations),
school records, and relevant family background.”). It
is clear from the record that, in addition to considering
the unexpected testimony presented by Craft and
his family members during the penalty phase, the
trial court endeavored to consider available mitigation
present elsewhere in the record, including in the PSI
and competency evaluations. We find no abuse of
discretion.

2. Childhood-Trauma Mitigator
Craft next argues that the trial court abused its
discretion in assigning little weight to the mitigating
circumstance of childhood trauma, the same weight
assigned to the mitigating circumstance that Craft
exhibited good behavior during trial. We “review[ ] a
trial court's assignment of weight to mitigation under
an abuse of discretion standard,” Bevel v. State, 983
So. 2d 505, 521 (Fla. 2008), and “will not disturb
the sentencing judge's determination as to ‘the relative
weight to give to each established mitigator’ where
that ruling ‘is supported by competent substantial
evidence,’ ” Gill v. State, 14 So. 3d 946, 964 (Fla. 2009)
(quoting Blackwood v. State, 777 So. 2d 399, 412-13
(Fla. 2000)).
Here, the trial court found that testimony from Craft's
penalty-phase witnesses and the PSI established that
he experienced a traumatic childhood. However, the
trial court assigned this mitigating circumstance little
weight based on its findings that “there was no
showing that these experiences diminished [Craft's]
ability to know or understand right from wrong” and
that “the evidence presented was not sufficient to
establish that [Craft's] childhood and adolescence had
an ill effect on [Craft].” Although Craft argues that
the *54 weight assigned to the childhood-trauma
mitigator was arbitrary and unreasonable because the
trial court also assigned the same weight to the
mitigating circumstance that Craft exhibited good
behavior during trial, the sentencing order reflects
that the trial court independently considered and
weighed both mitigating circumstances, and the trial
court's findings with respect to both circumstances
are supported by competent, substantial evidence.
Moreover, as the State points out, the trial court did
not simply arbitrarily assign all mitigation the same
weight. Rather, based in large part on the competency
evaluations by the mental health experts, the trial court
more heavily weighted the mitigating circumstance of
“general mental health mitigation,” assigning it “some
weight.” Because we cannot say on the facts of this
case that no reasonable trial court would have failed to
assign the childhood-trauma mitigating circumstance
more than little weight, we hold that the trial court did
not abuse its discretion.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Craft v. State, 312 So.3d 45 (2020)

Appendix A 7

45 Fla. L. Weekly S293

3. Failure to Inquire of the State, Call
Witnesses, or Appoint Special Counsel
Third, Craft argues that the trial court abused its
discretion in imposing the death penalty without
requiring the State to present all mitigating evidence in
its possession and without calling mitigating witnesses
or appointing special counsel. We disagree.
Regarding Craft's argument pertaining to the State, this
Court has explained that “[t]he trial court should ...
require the State ‘to place in the record all evidence
in its possession of a mitigating nature such as school
records, military records, and medical records.’ ”
Marquardt v. State, 156 So. 3d 464, 491 (Fla. 2015)
(quoting Muhammad v. State, 782 So. 2d 343, 363-64
(Fla. 2001)). However, Craft does not identify any
mitigation allegedly in the State's possession but not
in the record. Cf. Muhammad, 782 So. 2d at 364
n.11 (explaining that requiring the State to place
such items in the record “is consistent with the
prosecutors’ existing obligations” under the Florida
Rules of Professional Conduct). Moreover, the record
shows that the prosecutor stated during the penaltyphase proceeding that because he had not anticipated
that Craft's family members would testify, he “did
[his] best to come up with a range of non-statutory
mitigators” based “on the PSI, all the family statements
attached to the PSI, both mental health evaluations and
other facts gleaned from the entirety of the court file.”
The State plainly attempted to aid the trial court in its
consideration of mitigation. We hold that the trial court
did not abuse its discretion by failing to inquire of the
State about additional mitigation.
We also reject Craft's argument that the trial court
abused its discretion by failing to call mitigating
witnesses or appoint special counsel. See Robertson,
187 So. 3d at 1214 (“Whether to appoint special
counsel was a matter within the court's discretion.”);
see also Muhammad, 782 So. 2d at 364 (recognizing
that “the trial court has the discretion to call persons
with mitigating evidence as its own witnesses”). As
we have already explained, as a competent defendant,
Craft had the right to control the mitigation presented
in his case. See Hamblen, 527 So. 2d at 804. Moreover,
Craft does not identify the additional witnesses he

now claims that the trial court should have known to
call based on the information in the record. Further,
the trial court ordered a PSI and two competency
evaluations, and Craft's prior criminal history is in the
record. Consequently, the record contains a substantial
amount of information about the circumstances of
Craft's offense and Craft's character and background
in addition to the mitigation *55 presented by Craft
during the penalty-phase proceeding. Cf. Robertson,
187 So. 3d at 1214 (“[T]he [trial] court had before it
all the documents and background information from
which mitigating evidence could have been derived
had Robertson allowed such evidence to be presented,
particularly as Robertson has spent most of his adult
life in prison and was incarcerated as a juvenile before
that.”). On these facts, the trial court did not abuse its
discretion.

4. Failure to Consider Mitigation
Fourth, Craft argues that the trial court abused its
discretion by failing to consider all believable and
uncontroverted mitigation in the record. Specifically,
Craft points to nine items of alleged mitigation
that he contends the trial court failed to consider,
namely (1) Craft was born with the umbilical cord
around his neck and was blue and not breathing; (2)
Craft's mother failed to obtain proper mental health
treatment for Craft and felt that she could “beat it
out of him”; (3) by age four, all of Craft's baby
teeth were rotten because of malnutrition, and at
times, Craft's mother would starve the children; (4)
Craft was designated “emotionally handicapped” and
a “slow learner,” classified as “mentally retarded,” 4
and was enrolled in special education classes; (5)
Craft began drinking beer and smoking marijuana
around age ten or twelve, and later began using crystal
methamphetamine; (6) Craft had previously worked,
including repairing vehicles, welding, tree service,
carpentry, and painting/remodeling; (7) as an adult,
Craft saved a fellow inmate's life while they were
both in jail 5 ; (8) Craft immediately, and repeatedly,
confessed to killing the victim; and (9) Craft later
pleaded guilty to first-degree murder.
The trial court's sentencing order reflects that Florida
law requires the sentencing court to “ ‘consider all
mitigating evidence’ [found] anywhere in the record.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Craft v. State, 312 So.3d 45 (2020)

Appendix A 8

45 Fla. L. Weekly S293

Gill, 14 So. 3d at 955 (quoting Muhammad, 782 So.
2d at 363); see also Robinson, 684 So. 2d at 177
(explaining that this requirement applies to available
mitigation that is “believable and uncontroverted”).
The sentencing order further explains that the trial
court “considered the testimony and observed the
demeanor of all witnesses, reviewed all exhibits
introduced into evidence, weighed the argument by
counsel and the Defendant, reviewed Defendant's two
mental health evaluations, and reviewed the [PSI].”
Then, as authorized by Ault v. State, 53 So. 3d 175, 194
(Fla. 2010), the trial court “group[ed] into categories
proposed mitigating factors that are related in content,”
conducted a detailed analysis, and assigned weight
to each of the four categories it found, which were
childhood trauma, close family ties, general mental
health mitigation, and good behavior during trial.
At oral argument, the State conceded that the trial
court failed to consider items 6 and 7, Craft's prior
employment history and that Craft had saved a
fellow inmate's life. Our review of the sentencing
order confirms that neither of these mitigating *56
circumstances can be fairly assigned to any of the
four categories of mitigation found by the trial court.
However, we reject Craft's argument that the trial
court erred with respect to the remaining seven items.
Items 1-5 all relate to the mitigating circumstances
of “childhood trauma” or “general mental health.”
Moreover, the sentencing order expressly mentions
Craft's confession and guilty plea (items 8 and 9),
indicating that rather than overlook these items as
potential mitigation, the trial court did not consider
them mitigating based on the facts of this case. Cf.
Agan v. State, 445 So. 2d 326, 328-29 (Fla. 1983)
(rejecting, in a case where the defendant “declined
to present any evidence in mitigation,” the claim
that the trial court erred by failing to find the
defendant's “willingness to cooperate by confessing ...
and pleading guilty” as a mitigating circumstance
where it was “apparent that the trial judge did consider
and reject this willingness to cooperate as a mitigating
circumstance” based on the finding in the sentencing
order that the defendant “shows no remorse but seeks
rather a chance to kill again” if he receives a life
sentence).

5. Cumulative Error
Because we agree with Craft that the trial court erred in
failing to consider the believable and uncontroverted
mitigation of Craft's prior employment history and that
Craft had saved a fellow inmate's life, see Robinson,
684 So. 2d at 177, we address Craft's last mitigationrelated argument, namely that the cumulative effect
of the trial court's errors entitle him to relief from
his sentence of death. In light of the substantial
aggravation in this case—including the HAC, CCP,
and prior-violent-felony aggravators, which are three
of the most serious and weighty aggravators in the
capital sentencing scheme, see Bush v. State, 295
So. 3d 179, 215 (Fla. 2020)—we hold that there is
no reasonable possibility that the trial court's failure
to consider the additional mitigation of Craft's prior
employment or his having saved a fellow inmate's
life contributed to the sentence. See Ault, 53 So. 3d
at 195 (setting forth the harmless-error standard that
applies where the trial court errs in rejecting proposed
mitigation, namely “whether there is a reasonable
possibility that the error contributed to the sentence”)
(citing State v. DiGuilio, 491 So. 2d 1129, 1138
(Fla. 1986)); Rogers v. State, 285 So. 3d 872, 890
(Fla. 2019) (concluding that the trial court's error in
failing to find a proposed mitigating circumstance that
was supported by the record “was harmless beyond
a reasonable doubt because there is no reasonable
possibility that the trial court would have imposed
a life sentence” but for the error in light of the
weighty aggravating circumstances). 6 Accordingly,
*57 Craft is not entitled to relief as a result of the
trial court's failure to consider these two mitigating
circumstances.

B. Sufficiency of Aggravators
Next, Craft argues that the trial court fundamentally
erred by failing to determine beyond a reasonable
doubt that the aggravating factors were sufficient to
justify the death penalty. However, in cases where the
defendant did not waive the right to a penalty-phase
jury, we have repeatedly held that this determination is
“not subject to the beyond a reasonable doubt standard
of proof.” Newberry v. State, 288 So. 3d 1040, 1047
(Fla. 2019) (citing Rogers, 285 So. 3d at 886); see

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Craft v. State, 312 So.3d 45 (2020)

Appendix A 9

45 Fla. L. Weekly S293

also McKinney v. Arizona, ––– U.S. ––––, 140 S. Ct.
702, 707-08, 206 L.Ed.2d 69 (2020) (explaining that
“[u]nder Ring [v. Arizona, 536 U.S. 584, 122 S.Ct.
2428, 153 L.Ed.2d 556 (2002),] and Hurst [v. Florida,
577 U.S. 92, 136 S.Ct. 616, 193 L.Ed.2d 504 (2016)],
a jury must find the aggravating circumstance that
makes the defendant death eligible” but that “Ring and
Hurst did not require jury weighing of aggravating and
mitigating circumstances”); State v. Poole, 297 So. 3d
487, 505, 507 (Fla. 2020) (concluding that “only one
of the findings ... identified in Hurst v. State [202 So.
3d 40 (Fla. 2016)]—the finding of the existence of
an aggravating circumstance—qualifies as an element,
including for purposes of our state constitution” and
“reced[ing] from Hurst v. State except to the extent
it requires a jury unanimously to find the existence
of a statutory aggravating circumstance beyond a
reasonable doubt”). Recently, in Lawrence v. State, 308
So.3d 544, 552 n.8 (Fla. Oct. 29, 2020), we confirmed
that the same claim is equally meritless where, as here,
the defendant waived the right to a penalty-phase jury.
See also § 921.141(3)(b), Fla. Stat. (2019) (subjecting
only the trial court's finding of the existence of at
least one aggravating factor to the beyond a reasonable
doubt standard of proof). Accordingly, because the trial
court did not err, let alone fundamentally so, Craft is
not entitled to relief.

C. Competency
In the final issue raised by Craft, he argues that his case
must be remanded to the trial court for the entry of a
written order nunc pro tunc to the date the trial court
orally found him competent to proceed. In SantiagoGonzalez v. State, 301 So. 3d 157, 175 (Fla. 2020), we
recognized that “this Court has read Florida Rule of
Criminal Procedure 3.212(b) as requiring issuance of
a written order of competency.” There, however, we
addressed as an issue of first impression whether, in
cases where the failure to enter a written order was
not brought to the trial judge's attention, the failure
should be remediable on appeal only if it constitutes
fundamental error. See id. at 175 & n.5. We held that
it should. Id. at 175.
As in Santiago-Gonzalez, the trial court's failure to
enter a written order in Craft's case does not constitute
fundamental error. After the trial court orally found

Craft competent on March 27, 2019, nothing in the
record indicates that the failure to enter a written order
was brought to *58 the trial court's attention. In
light of the trial court's oral competency finding in
Craft's case, which is fully supported by the record,
including determinations by two experts that Craft
was competent to proceed, Craft has not demonstrated
fundamental error. Accordingly, he is not entitled to
relief on this issue. See id.

D. Guilty Plea
Although Craft has not raised the issue, “[b]ecause the
conviction for which the death penalty was imposed
in this case was the result of [the defendant's] guilty
plea, our mandatory [sufficiency] review ‘shifts to
the knowing, intelligent, and voluntary nature of that
plea.’ ” Gill, 14 So. 3d at 950 n.4 (quoting Tanzi
v. State, 964 So. 2d 106, 121 (Fla. 2007)); Fla.
R. App. P. 9.142(a)(5) (“On direct appeal in death
penalty cases, whether or not insufficiency of the
evidence ... is an issue presented for review, the court
shall review the[ ] issue[ ] and, if necessary, remand
for the appropriate relief.”); see also Doty v. State,
170 So. 3d 731, 738-39 (Fla. 2015) (explaining that
“th[is] Court must ‘scrutinize the plea to ensure that
the defendant was made aware of the consequences
of his plea, was apprised of the constitutional rights
he was waiving, and pled guilty voluntarily’ ” and
further addressing whether “[t]he factual basis for
the plea provide[d] competent, substantial evidence
to support the conviction for first-degree murder”)
(quoting Winkles v. State, 894 So. 2d 842, 847 (Fla.
2005)).
In Craft's case, the trial court conducted an extensive
inquiry into Craft's knowledge and understanding of
the charge against him, the constitutional rights he
was waiving as a result of his guilty plea, and the
consequences of pleading guilty. During the colloquy,
Craft stated that he understood that the only two
possible sentences for first-degree murder are life
imprisonment or death, that his case would proceed
directly to the penalty phase as a result of his plea,
and that he was not threatened or coerced into pleading
guilty or promised a specific sentence in return for
his plea. Our review of the record confirms that
Craft's guilty plea to first-degree murder was knowing,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Craft v. State, 312 So.3d 45 (2020)

Appendix A 10

45 Fla. L. Weekly S293

intelligent, and voluntary, and the factual basis for
Craft's plea provides competent, substantial evidence
to support his conviction for first-degree murder. Cf.
Doty, 170 So. 3d at 739.

III. CONCLUSION
For the foregoing reasons, we affirm Craft's conviction
for first-degree murder and his sentence of death.

LABARGA, J., concurs in result with an opinion.
LABARGA, J., concurring in result.
In light of this Court's decision in Lawrence v. State,
308 So.3d 544 (Fla. Oct. 29, 2020) (receding from
proportionality review requirement in death penalty
direct appeal cases), and for the reasons expressed
in my dissent in Lawrence, id. at 546-48, I can only
concur in the result.
All Citations

It is so ordered.

312 So.3d 45, 45 Fla. L. Weekly S293
CANADY, C.J., and POLSTON, LAWSON, MUÑIZ,
COURIEL, and GROSSHANS, JJ., concur.

Footnotes
1
2
3

4

5
6

Faretta v. California, 422 U.S. 806, 95 S.Ct. 2525, 45 L.Ed.2d 562 (1975).
Spencer v. State, 615 So. 2d 688 (Fla. 1993).
The State also raised the issue of the comparative proportionality of Craft's death sentence.
However, after oral argument in this case, in Lawrence v. State, 308 So.3d 544, 546 (Fla. Oct. 29,
2020), we receded from the judge-made requirement to review the comparative proportionality of
death sentences as contrary to the conformity clause of the Florida Constitution. Accordingly, we
do not review the comparative proportionality of Craft's sentence of death.
Craft's aunt, Barbara Chapple, was interviewed for the PSI, and she stated that Craft “was
classified as ‘mentally retarded’ before the age of 12.” Craft's other aunt, Michelle Griggs, was
also interviewed, and she “stated that the ‘mental retardation’ designation as a child was due
to his learning disabilities.” One of Craft's competency evaluation reports includes the mental
health expert's finding that Craft “appears to function at or near the average range of general
intelligence.” No argument has been advanced that Craft is intellectually disabled.
The PSI indicates that, while in jail, Craft saved the life of a fellow inmate who allegedly intended
to commit suicide.
We note that Rogers and other similar cases applying the harmless-error standard of review
to trial court errors respecting mitigation, see, e.g., Ault, 53 So. 3d at 187, address mitigation
proposed by the defendant. In contrast, here, the two items of mitigation that the trial court failed
to consider were not part of the limited mitigation that Craft presented during the penalty phase
proceeding. Rather, they were contained in the PSI, and Craft expressly stated at the Spencer
hearing that he did not wish to be heard on any of the information contained in the PSI. However,
the State has not asked us to apply a fundamental-error standard of review to Craft's argument
that the trial court erred in failing to consider mitigation that he did not propose below. Cf. Fennie
v. State, 855 So. 2d 597, 608-09 (Fla. 2003) (holding trial court's failure to assign weights to
the individual aggravating and mitigating circumstances did “not constitute fundamental error
because the sentencing order was otherwise thorough and detailed, addressed all of the matters
claimed in mitigation and aggravation, and contained a proper weighing analysis even though

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Craft v. State, 312 So.3d 45 (2020)

Appendix A 11

45 Fla. L. Weekly S293

individual weights were not assigned,” allowing this Court “to conduct a meaningful review of [the
defendant's] case on direct appeal”) (emphasis added); see generally Hayward v. State, 24 So.
3d 17, 42 (Fla. 2009) (explaining that unpreserved errors are reviewed for fundamental error). We
are not aware of a decision expressly addressing the proper standard of review on facts similar to
those at issue in this case. Nevertheless, our holding that the errors respecting mitigation in Craft's
case are harmless makes it unnecessary to resolve this issue because error that is harmless
cannot be fundamental. See Reed v. State, 837 So. 2d 366, 370 (Fla. 2002) (“If the error was not
harmful, it would not meet our requirement for being fundamental.”).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Craft v. State, Not Reported in So. Rptr. (2021)

Appendix B 1

46 Fla. L. Weekly S52

2021 WL 822523
Supreme Court of Florida.
Robert CRAFT, Appellant(s)
v.
STATE of Florida, Appellee(s)
CASE NO.: SC19-953
|
MARCH 4, 2021
Lower Tribunal No(s).: 122018CF000667CFAXMX
Opinion
*1 Appellant's Motion for Rehearing is hereby
denied.

CANADY, C.J., and POLSTON, LABARGA,
LAWSON, MUÑIZ, COURIEL, and GROSSHANS,
JJ., concur.
LABARGA, J., concurs with an opinion.
LABARGA, J., concurring.
I agree that Craft has not established a basis for
rehearing, and consequently, I have voted to deny
rehearing. However, I firmly adhere to my dissent in
Lawrence v. State, 308 So. 3d 544 (Fla. 2020), and my
belief that proportionality review is an essential part
of this Court's review of death penalty cases on direct
appeal.
All Citations
Not Reported in So. Rptr., 2021 WL 822523, 46 Fla.
L. Weekly S52

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

